          Office of Audits
          Office of Inspector General
          U.S. General Services Administration




          Audit of the
          Public Buildings Service,
          Southeast Sunbelt Region’s
          Lease Administration
          Practices
          Report Number A120023/P/4/R12011
          September 27, 2012




A120023/P/4/R12011
                    Office of Audits
                    Office of Inspector General
                    U.S. General Services Administration


                                   REPORT ABSTRACT
                            Audit of the Public Buildings Service, Southeast Sunbelt Region’s
OBJECTIVE                   Lease Administration Practices
 Our objective was to       Report Number Report A120023/P/4/R12011
 determine if the           September 27, 2012
 Southeast Sunbelt
 Region’s Leasing           WHAT WE FOUND
 Division employs lease
 administration policies    We identified the following during our audit:
 and procedures that        Finding 1 – PBS’s emphasis on aggregate funds from operations
 minimize financial gains   performance masked individual property performance.
 or losses on leased
 inventory as required by   Finding 2 – PBS’s poor lease administration practices resulted in
 Public Buildings Service   payment and billing errors.
 (PBS) policy.


                            WHAT WE RECOMMEND
                            Based on our audit findings, we recommend that the Regional
                            Commissioner of PBS:
                               1. Implement a process to review and evaluate the financial
                                  performance of each individual property, instead of focusing
                                  solely on the aggregate performance measures for the leased
                                  portfolio; and

                              2. Implement processes to ensure that changes to the lease, rent
                                 payments, and Occupancy Agreements are processed timely,
                                 accurately and in accordance with PBS lease administration
                                 policy.
                            MANAGEMENT COMMENTS
                            Management    generally  agreed    with  our  findings   and
Southeast Sunbelt Audit     recommendations. Appendix B contains management’s response in
Office (JA-4)               its entirety.
401 W. Peachtree St
Suite 1701
Atlanta, GA 30308
(404) 331-5125


     A120023/P/4/R12011                       i
                   Office of Audits
                   Office of Inspector General
                   U.S. General Services Administration

 DATE:             September 27, 2012
 TO:               John E.B. Smith
                   Regional Commissioner for PBS (4P)

 FROM:
                   Nicholas V. Painter
                   Regional Inspector General for Auditing
                   Southeast Sunbelt Office of Audits (JA-4)
 SUBJECT:          Audit of the Public Buildings Service, Southeast Sunbelt Region’s
                   Lease Administration Practices.
                   Report Number A120023/P/4/R12011

This report presents the results of our audit of the Public Buildings Service, Southeast
Sunbelt Region’s lease administration practices. Our findings and recommendations
are summarized in the Report Abstract. Instructions regarding the audit resolution
process can be found in the email that transmitted this report.

Your written comments to the draft report are included in Appendix B of this report.

If you have any questions regarding this report, please contact me or any member of
the audit team at the following:

Nicholas Painter     Regional Inspector nicholas.painter@gsaig.gov 404-331-5520
                     General for Auditing
Arthur Edgar         Auditor-In-Charge    arthur.edgar@gsaig.gov   404-331-0379
LaTasha Smith        Management           latasha.smith@gsaig.gov  404-331-0381
                     Analyst

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this audit.




   A120023/P/4/R12011                       ii
Table of Contents
Introduction .............................................................................................................. 1

Results
Finding 1        PBS’s emphasis on aggregate funds from operations performance masked
                 individual property performance... ........................................................... 3
                 Recommendation 1 ................................................................................. 3


Finding 2        PBS’s poor lease administration practices resulted in payment and billing
                 errors ....................................................................................................... 4
                 Recommendation 2 ................................................................................. 6

Other Observations. ................................................................................................... 7

Conclusion................................................................................................................ 8

Appendixes
Appendix A – Purpose, Scope, and Methodology ............................................. A-1
Appendix B – Management’s Comments ......................................................... ..B-1
Appendix C – Report Distribution ....................................................................... C-1




     A120023/P/4/R12011                                        iii
Introduction
The Southeast Sunbelt Region’s (Region 4) Leasing Division 1 is responsible for lease
acquisition and space management throughout Region 4. The division evaluates client
agency space requirements; markets space needs; negotiates and implements leases
and Occupancy Agreements (OAs); assigns space; and participates in new construction
and renovation/alteration projects.

The Public Buildings Service (PBS) collects rent revenue from federal agencies housed
in leased properties, which it deposits into the Federal Buildings Fund (FBF) 2 and uses
to pay rent to lessors. The Pricing Desk Guide requires that rent charged to tenant
agencies be a pass-through of the rent charged in the underlying lease contract, plus a
fee 3 that covers PBS’s cost of managing the leased inventory. In accordance with the
guide, PBS generally applies a 4-7 percent fee. 4

Rental revenue remaining after deducting all direct and indirect expenses (excluding
depreciation) is considered Funds from Operations (FFO). PBS estimates that
maintaining FFO between 0 percent and 2 percent of revenues 5 ensures that the
leasing program operates on or close to a break-even basis. In fiscal year (FY) 2011,
Region 4’s leased building inventory generated rental revenue of $607.0 million and had
Rental of Space expenses of $565.5 million. After deducting other expenses, the
region’s FFO was $12.5 million 6 (2.06 percent of lease revenues).

To evaluate the efficiency of its leasing operations, Region 4 uses performance
measures provided by Linking Budget to Performance (LB2P)7 and the National
Performance Plan for FY 2011. The Region’s LB2P target in FY 2011 was to break
even on its leased inventory FFO, while the National Performance Plan for FY 2011
states that PBS should manage its leased space so that the aggregate FFO is between
0-2 percent of the leased inventory revenue.



1
  Formerly referred to as the Real Estate Acquisition Division (READ).
2
  The Federal Buildings Fund is a revolving fund that provides financing for real property management
and related activities, including operation, maintenance, repair of federally owned buildings, and the
construction of Federal buildings, courthouses and land ports of entry. Expenses are financed from rental
charges assessed to occupants of GSA-controlled space.
3
  The fee is designed to cover PBS’s contract risk and lease acquisition and administration services.
4
  The standard PBS fee for leased space is 7 percent. PBS reduces the fee to 5 percent for lease
assignments designated as non-cancellable. The fee is further reduced to 4 percent for tenant agencies
that occupy space in United States Postal Service controlled properties.
5
  This target is lower than the PBS fee of 4-7 percent because it accounts for risk and costs incurred by
PBS while managing the leased Portfolio.
6
  This number excludes revenue generated by Portfolio Leases at the Atlanta Federal Center and the
King Building in Miami. Central Office also excludes these two buildings from the Region 4 Linking Budget
to Performance Leased FFO measure.
7
  The LB2P program provides PBS a method to distribute a portion of its budget to regions for improving
performance and exceeding performance targets.


A120023/P/4/R12011                             1
The audit objective was to determine if the Region 4 Leasing Division employs lease
administration policies and procedures that minimize financial gains or losses on leased
inventory as required by PBS policy.

See Appendix A – Purpose, Scope, and Methodology for additional details.




A120023/P/4/R12011                     2
Results
Finding 1 – PBS’s emphasis on aggregate funds from operations performance
masked individual property performance.

The performance measures provided by LB2P and the National Performance Plan focus
on overall leased portfolio performance and incentivize the region to meet aggregate
FFO results. This focus on aggregate FFO measures presents a misleading picture of
the Region’s performance. In FY 2011, 344 out of 1,535 properties had negative FFO
totaling $17.7 million, while 219 properties generated returns that exceeded the 7
percent fee PBS charged to its tenants.

Figure 1 shows the ranges of FFO, within the Region’s portfolio, as a percentage of
revenues and the percentage of properties within each range. As can be seen, only 11
percent of Region 4’s leased properties generated FFO within the targeted 0–2 percent
range.

Figure 1


                                     FFO as a Percentage of Revenue
                                                                                     53%
                             60%
  Percentage of Properties




                             50%

                             40%

                             30%                                                                   15%
                                       13%                            11%
                             20%                       8%

                             10%

                             0%
                                   -10.01% +    -10.00% to 0%   0% to 2.00%   2.01% to 7.00%   7.01% +

                                               FFO Percentage of Property Revenue



Recommendation 1

To more accurately portray the effectiveness of the Leasing Division’s lease
administration practices and adherence to PBS policy, the PBS Regional Commissioner
should implement a process to review and evaluate the financial performance of each
individual property instead of focusing solely on the aggregate performance measures
for the leased portfolio.



A120023/P/4/R12011                                          3
Finding 2 – PBS’s poor lease administration practices resulted in payment and
billing errors.

The Region 4 Leasing Division procedures did not ensure timely and accurate
processing of changes to lease and OA terms. Consequently, PBS made erroneous
payments to lessors and incorrectly billed tenant agencies, impacting the Region’s FFO
and its contributions to the FBF. 8

PBS’s untimely processing of rental rate adjustments caused erroneous payments to
lessors.

The Region 4 Leasing Division did not consistently adjust rental rates in accordance
with lease terms for 15 of the 39 properties (38.5 percent) reviewed. These
inconsistencies led to delays that resulted in erroneous payments to lessors in FY 2011
and in prior years. The erroneous payments and corrections for prior years’ errors
increased FFO by $1,998,262 in FY 2011. In five cases, PBS did not make required
rental rate increases, resulting in total underpayments of $385,356 and overstated
FFOs. Conversely, in 10 instances, PBS did not make downward adjustments, thus
overpaying the lessors by $2,383,619 and understating the FFOs.

The Lease and Supplemental Lease Agreements establish the schedule for the
application of these adjustments, which generally occur once tenant build-out costs
have been fully amortized; when space requirements change; or in anticipation of
market changes during the life of the lease.

The delays occurred because PBS information systems rely on manual processes to
make the appropriate adjustments. While PBS’s Real Estate across the United States
(REXUS) 9 system automatically tracks when rental rate adjustments are to occur and
notifies PBS personnel when changes are necessary, it does not automatically
implement the changes. Further, PBS personnel stated that REXUS could not provide
them with a report showing all upcoming changes. Consequently, they use manual
processes to track this information and implement the changes. As a result, some of the
required changes were not processed in a timely manner. While many of the leases
impacted by these errors were setup prior to PBS’s conversion to REXUS from the
System for Tracking and Administering Real Property (STAR), the errors continued after
REXUS went live, though less frequently. 10

The Leasing Division should implement controls that ensure changes affecting the
lessors’ payments are processed timely and accurately.


8
   The impacts to the FFO included errors made in FY 2011 and correcting entries from errors made in
prior fiscal years.
9
   REXUS is currently used by PBS to manage the Government’s real property assets. PBS transitioned
from STAR to REXUS in July 2011.
10
   STAR did not automatically track when rental adjustments were necessary or notify personnel when
changes were appropriate.


A120023/P/4/R12011                           4
PBS’s inaccurate execution of Occupancy Agreements resulted in erroneous and late
billings to tenants.

PBS executed OAs using erroneous rates and data. Since OAs confirm the tenant
agencies’ financial commitment to pay the agreed upon rent, failure to accurately
execute them can result in erroneous rent bills to the tenant agencies, and can impact
PBS’s FFO.

The Pricing Desk Guide states that OAs shall be activated for all new space
assignments and when changes to existing agreements are warranted. 11 In these
instances, PBS personnel must manually process the change or activation in PBS
systems. Such updates do not occur automatically and require a contracting officer’s
approval prior to finalization.

PBS did not accurately process changes to 10 OAs for the leases reviewed. In another
instance, PBS failed to activate the OA prior to the effective date of the succeeding
lease; as a result, the tenant was not billed until 18 months after the succeeding lease
began. In five cases, PBS overbilled tenants by a total of $655,113; in six, PBS under-
billed by $1,297,095. In total, these errors resulted in $1,952,208 in billing errors.

The Leasing Division’s failure to follow established billing procedures resulted in tenant
agencies being billed incorrectly and negatively impacted the FBF and the Region’s
FFO. The leasing division should reinforce its policies, ensuring that OAs are processed
timely and accurately and tenant agencies are billed properly.

PBS’s untimely processing of lease holdovers resulted in late or missed payments to
lessors.

For 5 of the 39 properties, PBS failed to process paperwork that changed the status of
the lease from expired to holdover in a timely manner. As a result, payments to the
lessor stopped, making these leases appear to be overly-profitable. However, the FFO
will be negatively impacted when catch-up payments are made.

Per the Leasing Desk Guide, 12 when the Federal Government occupies space after a
lease has expired but prior to executing a succeeding or new lease, PBS must continue
to make monthly rental payments at the then-current rental rate stated in the expired
lease. 13 In these cases, payments to the lessors ceased at lease expiration since
neither STAR nor REXUS automatically established holdover status. Both systems
require that PBS perform this task manually. For two of the properties, payments to the

11
   OA revisions may be necessary when the tenant agency expands or reduces space at an existing
location; services are added or removed; PBS agrees to fund additional tenant improvements; or PBS
and the tenant agency mutually agree to revise the OA terms.
12
   Chapter 10, Section 2 (Lease Holdovers, Standstill Agreements, and Condemnations)
13
   The continuing rent payments are also a requirement in standstill agreements that preserve the status
quo between the lessor and the Government. If a holdover is not avoided, signing a standstill agreement
may mitigate negative impacts to the lessor and reduce the possibility of the lessor placing claims against
GSA for damages.


A120023/P/4/R12011                              5
lessors ceased in FY 2011 and increased the FFO by $108,537. For three of the
properties, PBS made catch-up payments to the lessor or made accounting accruals
that reduced the FY 2011 FFO by $550,978.

PBS may ultimately be held responsible for reimbursing the lessor for damages incurred
due to late or missed payments. 14 PBS should take steps to ensure that lease holdovers
are administered in accordance with leasing policy and that lessors are paid
appropriately.

PBS’s improper accounting practices led to the inaccurate reporting of individual
property’s funds from operations.

PBS erroneously directed the rent revenue to one property while charging expenses to
another, or vice versa, for five of the properties reviewed. In total, $3,337,439 was
assigned to incorrect buildings. This distorted the FFO numbers for the affected
properties.

When the lease projects for the five properties were created in STAR or REXUS, PBS
leasing specialists incorrectly tied the revenue and expense streams to non-related
properties. Four of the five properties were incorrectly linked together, while one was
linked to a property outside of our sample. In one instance, PBS was aware of the
inaccuracy but chose not to correct the issue because the lease was nearing expiration
and the error did not affect the Region’s overall FFO performance goals. PBS officials
acknowledged that the FFO for the property had been incorrect for the entire term of the
lease.

PBS evaluates the financial performance of each property on a monthly basis based on
its revenue and expense data. Without accurate recording and reporting of this data, the
FFO of a property is misstated and cannot be relied upon for this evaluation. Leasing
division officials should take measures to ensure that assets are correctly setup in PBS
systems and the corresponding operating results are accurately reported and recorded.

Recommendation 2

We recommend that the PBS Regional Commissioner implement processes to ensure
that changes to the lease, rent payments, and OAs are processed timely, accurately
and in accordance with PBS lease administration policy.




14
     Per FAR Subpart 32.9 Prompt Payment, GSA may be subject to late payment interest penalties.


A120023/P/4/R12011                              6
Other Observations

We identified other issues that led to excessive gains and losses on individual
properties:

   1. In five instances, PBS overpaid the lessor through duplicate payments, missed
      commissions, and parking credits. These overpayments totaled $620,680. As of
      the end of audit field work, $288,323 had not yet been recovered.

   2. In three instances, PBS failed to make payments to the lessor in the period due.
      This occurred because of an ownership change; late lease activation; and
      correction to duplicate lease numbers. The affected payments totaled $299,228.

   3. In one instance, a lease was terminated at the convenience of the tenant agency
      in October 2009, but PBS has not been able to backfill the space. PBS attempted
      a buyout, but was rejected by the lessor. PBS is committed to pay the lessor
      through April 2016. The cost of this vacant space to the Region was
      approximately $1.4 million in FY 2011. As tenant agencies seek to reduce
      space, PBS is at risk of incurring additional costs associated with vacant space
      and buyouts.

   4. In FY 2011, Region 4’s FFO was decreased by $871,849 as a result of
      accounting rules that impact how free rent, step rent and broker commissions are
      recorded.




A120023/P/4/R12011                    7
Conclusion
In FY 2011, nearly 90 percent (1,372 out of 1,535) of the properties in Region 4’s leased
inventory operated with profits or losses outside the 0-2 percent FFO target range.
While the Region’s aggregate FFO results approached PBS’s performance measure
objectives, these results are misleading, as the profits and losses offset one another,
and give a false impression that the Region operates efficiently within its lease fee
structure. The Region did not always follow procedures to ensure timely and accurate
processing of changes to lease and OA terms, which led PBS to send erroneous
payments to lessors and incorrectly bill tenant agencies, thus impacting the Region’s
FFO and contributions to the FBF.

The Region 4 Leasing Division can more accurately assess the efficiency of its
operations by implementing a process to review and evaluate the financial performance
of each lease or property, instead of focusing solely on the aggregate performance
measures for the leased portfolio. Additionally, the Leasing Division should implement
processes to ensure that changes to the lease, rent payments, and OAs are processed
timely, accurately and in accordance with PBS lease administration policy.

PBS management stated that they are aware of these findings, and indicated that they
had begun working on corrective actions prior to completion of the audit.




A120023/P/4/R12011                      8
Appendix A – Purpose, Scope, and Methodology
Purpose

This audit was included in the GSA Office of Inspector General’s FY 2012 Audit Plan.

Scope

Our audit was based on a review of properties and leases     in Region 4’s leased building
portfolio. The properties selected for testing were chosen   because of their excessively
positive or negative FFO results in FY 2011. In addition,    we assessed controls in the
Leasing Division based on applicable leasing policies,       procedures, standards, and
guidance.

Methodology

To accomplish our objective, we:

   •   Reviewed PBS’s directives, internal policies and procedures pertaining to the
       leasing process;
   •   Conducted meetings and interviews with employees from Region 4’s Leasing
       Division, Portfolio Group, and Budget & Financial Management Division;
   •   Interviewed other cognizant GSA employees;
   •   Reviewed guidance on leasing provided by GSA and other federal agencies;
   •   Reviewed audit reports from the GSA OIG and other agencies associated with
       leasing practices;
   •   Performed a walk-through of the “loser lease” research process with Portfolio
       Group and Leasing Division employees;
   •   Selected and examined a sample of properties with excessively positive and
       negative FFO; and
   •   Reviewed leases and documentation supporting payments to lessors and
       invoices to tenant agencies in FY 2011.

We conducted the audit between December 2011 and March 2012 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




A120023/P/4/R12011                    A-1
Internal Controls

We limited our assessment of internal controls to those related to the leasing practices
performed throughout Region 4. We reviewed GSA’s and the Leasing Division’s
policies and procedures, performed audit procedures to assess the effectiveness of the
controls, and made recommendations to strengthen and improve the controls discussed
in the Results section of this report.




A120023/P/4/R12011                    A-2
Appendix B – Management’s Comments




A120023/P/4/R12011     B-1
A120023/P/4/R12011   B-2
A120023/P/4/R12011   B-3
A120023/P/4/R12011   B-4
A120023/P/4/R12011   B-5
A120023/P/4/R12011   B-6
Appendix C – Report Distribution
Regional Administrator (4)

PBS Regional Commissioner (4P)

Regional Counsel (4L)

Director, Leasing Division (4PR1)

Division Director, GAO/IG Audit Response Division (H1C)

Management and Program Analyst (4PFC)

Assistant IG for Auditing (JA)

Deputy Assistant IG for Investigations (JID)

Director, Auditing Planning, Policy, and Operations Staff (JAO)




A123456/P/4/R12011                     C-1
